HHS/OIG-Audit--"Review of the North Carolina Division of Medical Assistance's Reimbursement for Clinical Laboratory Services Under the Medicaid Program, (A-04-95-01113)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - Review of the North Carolina Division of Medical Assistance's
Reimbursement for Clinical Laboratory Services Under the Medicaid Program," (A-04-95-01113)
February 1, 1996
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was a joint effort by the Office of Inspector General and the North Carolina Office of the State Auditor. The
audit disclosed that the State agency does not have adequate edits in place to prevent the payment of unbundled or duplicated
claims for certain laboratory services. A statistical sample of 300 claims showed that 297 claims were not paid correctly.
We estimate that the State agency overpaid providers $1,282,509 (Federal share) for certain laboratory tests for calendar
years 1993 and 1994. In addition to financial adjustments, we recommended that the State agency install edits to detect
and prevent payments for unbundled services and billings which contain duplicate tests. State agency officials generally
concurred with our recommendations.